                                                        68762                Federal Register / Vol. 74, No. 248 / Tuesday, December 29, 2009 / Proposed Rules

                                                        Agency, Air Planning and Development                    and Accountability Act (HIPAA) of                        Inspection of Public Comments: All
                                                        Branch, 901 North 5th Street, Kansas                    1996, this annual notice solicits                     comments received before the end of the
                                                        City, Kansas 66101. Comments may also                   proposals and recommendations for                     comment period are available for
                                                        be submitted electronically or through                  developing new and modifying existing                 viewing by the public. All comments
                                                        hand delivery/courier by following the                  safe harbor provisions under the Federal              will be posted on http://
                                                        detailed instructions in the ADDRESSES                  anti-kickback statute (section 1128B(b)               www.regulations.gov as soon as possible
                                                        section of the direct final rule located in             of the Social Security Act), as well as               after they have been received.
                                                        the rules section of this Federal                       developing new OIG Special Fraud                      Comments received timely will also be
                                                        Register.                                               Alerts.                                               available for public inspection as they
                                                        FOR FURTHER INFORMATION CONTACT:                        DATES: To assure consideration, public
                                                                                                                                                                      are received at Office of Inspector
                                                        Tracey Casburn at (913) 551–7016, or by                 comments must be delivered to the                     General, Department of Health and
                                                        e-mail at casburn.tracey@epa.gov.                       address provided below by no later than               Human Services, Cohen Building, 330
                                                        SUPPLEMENTARY INFORMATION: In the                       5 p.m. on March 1, 2010.                              Independence Avenue, SW.,
                                                        final rules section of the Federal                                                                            Washington, DC 20201, Monday
                                                                                                                ADDRESSES: In commenting, please refer                through Friday of each week from 8:30
                                                        Register, EPA is approving the state’s                  to file code OIG–114–N. Because of staff
                                                        revision as a direct final rule without                                                                       a.m. to 4 p.m. To schedule an
                                                                                                                and resource limitations, we cannot                   appointment to view public comments,
                                                        prior proposal because the Agency                       accept comments by facsimile (FAX)
                                                        views this as a noncontroversial                                                                              phone (202) 401–2206.
                                                                                                                transmission.
                                                        revision amendment and anticipates no                      You may submit comments in one of                  I. Background
                                                        relevant adverse comments to this                       three ways (no duplicates, please):                   A. OIG Safe Harbor Provisions
                                                        action. A detailed rationale for the                       1. Electronically. You may submit
                                                        approval is set forth in the direct final               electronic comments on specific                         Section 1128B(b) of the Social
                                                        rule. If no relevant adverse comments                   recommendations and proposals                         Security Act (the Act) (42 U.S.C. 1320a–
                                                        are received in response to this action,                through the Federal eRulemaking Portal                7b(b)) provides criminal penalties for
                                                        no further activity is contemplated in                  at http://www.regulations.gov.                        individuals or entities that knowingly
                                                        relation to this action. If EPA receives                (Attachments should be in Microsoft                   and willfully offer, pay, solicit, or
                                                        relevant adverse comments, the direct                   Word, if possible.)                                   receive remuneration in order to induce
                                                        final rule will be withdrawn and all                       2. By regular, express, or overnight               or reward business reimbursable under
                                                        public comments received will be                        mail. You may send written comments                   the Federal health care programs. The
                                                        addressed in a subsequent final rule                    to the following address: Office of                   offense is classified as a felony and is
                                                        based on this proposed action. EPA will                 Inspector General, Department of Health               punishable by fines of up to $25,000
                                                        not institute a second comment period                   and Human Services, Attention: OIG–                   and imprisonment for up to 5 years. OIG
                                                        on this action. Any parties interested in               114–N, Room 5541, Cohen Building,                     may also impose civil money penalties,
                                                        commenting on this action should do so                  330 Independence Avenue, SW.,                         in accordance with section 1128A(a)(7)
                                                        at this time. Please note that if EPA                   Washington, DC 20201. Please allow                    of the Act (42 U.S.C. 1320a–7a(a)(7)), or
                                                        receives adverse comment on part of                     sufficient time for mailed comments to                exclusion from the Federal health care
                                                        this rule and if that part can be severed               be received before the close of the                   programs, in accordance with section
                                                        from the remainder of the rule, EPA may                 comment period.                                       1128(b)(7) of the Act (42 U.S.C. 1320a–
                                                        adopt as final those parts of the rule that                3. By hand or courier. If you prefer,              7(b)(7)).
                                                        are not the subject of an adverse                                                                               Since the statute on its face is so
                                                                                                                you may deliver, by hand or courier,
                                                        comment. For additional information,                                                                          broad, concern has been expressed for
                                                                                                                your written comments before the close
                                                        see the direct final rule which is located                                                                    many years that some relatively
                                                                                                                of the comment period to Office of
                                                        in the rules section of this Federal                                                                          innocuous commercial arrangements
                                                                                                                Inspector General, Department of Health
                                                        Register.                                                                                                     may be subject to criminal prosecution
                                                                                                                and Human Services, Cohen Building,
                                                                                                                                                                      or administrative sanction. In response
                                                          Dated: December 15, 2009.                             330 Independence Avenue, SW.,
                                                                                                                                                                      to the above concern, the Medicare and
                                                        William Rice,                                           Washington, DC 20201. Because access
                                                                                                                                                                      Medicaid Patient and Program
                                                        Acting Regional Administrator, Region 7.                to the interior of the Cohen Building is
                                                                                                                                                                      Protection Act of 1987, section 14 of
                                                                                                                not readily available to persons without
                                                        [FR Doc. E9–30776 Filed 12–28–09; 8:45 am]                                                                    Public Law 100–93, specifically
                                                                                                                Federal Government identification,
                                                        BILLING CODE 6560–50–P                                                                                        required the development and
                                                                                                                commenters are encouraged to schedule
                                                                                                                                                                      promulgation of regulations, the so-
                                                                                                                their delivery with one of our staff
                                                                                                                                                                      called ‘‘safe harbor’’ provisions,
                                                                                                                members at (202) 619–1343.
                                                        DEPARTMENT OF HEALTH AND                                                                                      specifying various payment and
                                                                                                                   For information on viewing public
                                                        HUMAN SERVICES                                                                                                business practices which, although
                                                                                                                comments, please see the
                                                                                                                                                                      potentially capable of inducing referrals
                                                                                                                SUPPLEMENTARY INFORMATION section.
                                                        Office of Inspector General                                                                                   of business reimbursable under the
                                                                                                                FOR FURTHER INFORMATION CONTACT:                      Federal health care programs, would not
                                                        42 CFR Part 1001                                        Patrice Drew, Department of Health &                  be treated as criminal offenses under the
                                                                                                                Human Services, Office of Inspector
cprice-sewell on DSK2BSOYB1PROD with PROPOSALS-1




                                                                                                                                                                      anti-kickback statute and would not
                                                        Solicitation of New Safe Harbors and                    General, Office of External Affairs, (202)            serve as a basis for administrative
                                                        Special Fraud Alerts                                    619–1368.                                             sanctions. OIG safe harbor provisions
                                                        AGENCY: Office of Inspector General                     SUPPLEMENTARY INFORMATION:                            have been developed ‘‘to limit the reach
                                                        (OIG), HHS.                                                Submitting Comments: We welcome                    of the statute somewhat by permitting
                                                        ACTION: Notice of intent to develop                     comments from the public on                           certain non-abusive arrangements, while
                                                        regulations.                                            recommendations for developing new or                 encouraging beneficial and innocuous
                                                                                                                revised safe harbors and Special Fraud                arrangements’’ (56 FR 35952, July 29,
                                                        SUMMARY: In accordance with section                     Alerts. Please assist us by referencing               1991). Health care providers and others
                                                        205 of the Health Insurance Portability                 the file code OIG–114–N.                              may voluntarily seek to comply with


                                                   VerDate Nov<24>2008   15:17 Dec 28, 2009   Jkt 220001   PO 00000   Frm 00043   Fmt 4702   Sfmt 4702   E:\FR\FM\29DEP1.SGM   29DEP1
                                                                             Federal Register / Vol. 74, No. 248 / Tuesday, December 29, 2009 / Proposed Rules                                           68763

                                                        these provisions so that they have the                  report of the public comments received                supporting, a suggestion for a safe
                                                        assurance that their business practices                 in response to that notice is set forth in            harbor or Special Fraud Alert would be
                                                        will not be subject to liability under the              Appendix D to the OIG’s Semiannual                    helpful and should, if possible, be
                                                        anti-kickback statute or related                        Report covering the period April 1,                   included in any response to this
                                                        administrative authorities.                             2009, through September 30, 2009.1 OIG                solicitation.
                                                           Existing OIG safe harbors describing                 is not seeking additional public                        Dated: December 14, 2009.
                                                        those practices that are sheltered from                 comment on the proposals listed in                    Daniel R. Levinson,
                                                        liability are codified in 42 CFR part                   Appendix D at this time. Rather, this
                                                                                                                                                                      Inspector General.
                                                        1001.                                                   notice seeks additional
                                                                                                                                                                      [FR Doc. E9–30560 Filed 12–28–09; 8:45 am]
                                                        B. OIG Special Fraud Alerts                             recommendations regarding the
                                                                                                                                                                      BILLING CODE 4152–01–P
                                                                                                                development of proposed or modified
                                                          OIG has also periodically issued                      safe harbor regulations and new Special
                                                        Special Fraud Alerts to give continuing                 Fraud Alerts beyond those summarized
                                                        guidance to health care providers with                  in Appendix D to the OIG Semiannual                   FEDERAL COMMUNICATIONS
                                                        respect to practices OIG finds                          Report referenced above.                              COMMISSION
                                                        potentially fraudulent or abusive. The
                                                        Special Fraud Alerts encourage industry                 A. Criteria for Modifying and                         47 CFR Parts 32, 36 and 54
                                                        compliance by giving providers                          Establishing Safe Harbor Provisions
                                                                                                                                                                      [WC Docket No. 05–337; CC Docket No. 96–
                                                        guidance that can be applied to their                     In accordance with section 205 of                   45; FCC 09–112]
                                                        own practices. OIG Special Fraud Alerts                 HIPAA, we will consider a number of
                                                        are intended for extensive distribution                 factors in reviewing proposals for new                High-Cost Universal Service Support;
                                                        directly to the health care provider                    or modified safe harbor provisions, such              Federal-State Joint Board on Universal
                                                        community, as well as to those charged                  as the extent to which the proposals                  Service
                                                        with administering the Federal health                   would affect an increase or decrease                  AGENCY: Federal Communications
                                                        care programs.                                          in—                                                   Commission.
                                                          In developing these Special Fraud                       • Access to health care services,
                                                        Alerts, OIG has relied on a number of                                                                         ACTION: Further notice of proposed
                                                                                                                  • The quality of services,
                                                                                                                                                                      rulemaking.
                                                        sources and has consulted directly with                   • Patient freedom of choice among
                                                        experts in the subject field, including                 health care providers,                                SUMMARY: In this document, the
                                                        those within OIG, other agencies of the                   • Competition among health care                     Commission responds to the decision of
                                                        Department, other Federal and State                     providers,                                            the United States Court of Appeals for
                                                        agencies, and those in the health care                    • The cost to Federal health care                   the Tenth Circuit in Qwest
                                                        industry.                                               programs,                                             Communications International, Inc. v.
                                                        C. Section 205 of Public Law 104–191                      • The potential overutilization of the              FCC and seeks comment on certain
                                                                                                                health care services, and                             interim changes to address the court’s
                                                           Section 205 of Public Law 104–191                      • The ability of health care facilities             concerns and changes in the
                                                        requires the Department to develop and                  to provide services in medically                      marketplace.
                                                        publish an annual notice in the Federal                 underserved areas or to medically
                                                        Register formally soliciting proposals                                                                        DATES: Comments are due on or before
                                                                                                                underserved populations.
                                                        for modifying existing safe harbors to                                                                        January 28, 2010 and reply comments
                                                                                                                  In addition, we will also take into
                                                        the anti-kickback statute and for                                                                             are due on or before February 12, 2010.
                                                                                                                consideration other factors, including,
                                                        developing new safe harbors and                         for example, the existence (or                        ADDRESSES: You may submit comments,
                                                        Special Fraud Alerts.                                   nonexistence) of any potential financial              identified by WC Docket No. 05–337; CC
                                                           In developing safe harbors for a                     benefit to health care professionals or               Docket No. 96–45, by any of the
                                                        criminal statute, OIG is required to                    providers that may take into account                  following methods:
                                                        engage in a thorough review of the range                their decisions whether to (1) order a                   › Federal eRulemaking Portal:
                                                        of factual circumstances that may fall                  health care item or service or (2) arrange            http://www.regulations.gov. Follow the
                                                        within the proposed safe harbor subject                 for a referral of health care items or                instructions for submitting comments.
                                                        area so as to uncover potential                                                                                  › Federal Communications
                                                                                                                services to a particular practitioner or
                                                        opportunities for fraud and abuse. Only                                                                       Commission’s Web Site: http://
                                                                                                                provider.
                                                        then can OIG determine, in consultation                                                                       fjallfoss.fcc.gov/ecfs2/. Follow the
                                                        with the Department of Justice, whether                 B. Criteria for Developing Special Fraud              instructions for submitting comments.
                                                        it can effectively develop regulatory                   Alerts                                                   › People with Disabilities: Contact
                                                        limitations and controls that will permit                                                                     the FCC to request reasonable
                                                                                                                  In determining whether to issue
                                                        beneficial and innocuous arrangements                                                                         accommodations (accessible format
                                                                                                                additional Special Fraud Alerts, we will
                                                        within a subject area while, at the same                                                                      documents, sign language interpreters,
                                                                                                                also consider whether, and to what
                                                        time, protecting the Federal health care                                                                      CART, etc.) by e-mail: FCC504@fcc.gov
                                                                                                                extent, the practices that would be
                                                        programs and their beneficiaries from                                                                         or phone: 202–418–0530 or TTY: 202–
                                                                                                                identified in a new Special Fraud Alert
                                                        abusive practices.                                                                                            418–0432.
                                                                                                                may result in any of the consequences                    For detailed instructions for
cprice-sewell on DSK2BSOYB1PROD with PROPOSALS-1




                                                        II. Solicitation of Additional New                      set forth above, as well as the volume                submitting comments and additional
                                                        Recommendations and Proposals                           and frequency of the conduct that                     information on the rulemaking process,
                                                                                                                would be identified in the Special Fraud              see the SUPPLEMENTARY INFORMATION
                                                           In accordance with the requirements
                                                                                                                Alert.                                                section of this document.
                                                        of section 205 of Public Law 104–191,
                                                                                                                  A detailed explanation of
                                                        OIG last published a Federal Register                                                                         FOR FURTHER INFORMATION CONTACT:
                                                                                                                justifications for, or empirical data
                                                        solicitation notice for developing new                                                                        Katie King, Wireline Competition
                                                        safe harbors and Special Fraud Alerts on                  1 The OIG Semiannual Report can be accessed         Bureau, Telecommunications Access
                                                        December 17, 2008 (73 FR 76575). As                     through the OIG Web site at http://oig.hhs.gov/       Policy Division, 202–418–7400 or TTY:
                                                        required under section 205, a status                    publications/semiannual.asp.                          202–418–0484.


                                                   VerDate Nov<24>2008   15:17 Dec 28, 2009   Jkt 220001   PO 00000   Frm 00044   Fmt 4702   Sfmt 4702   E:\FR\FM\29DEP1.SGM   29DEP1
